IN THE
SUPREME COURT OF THE UNITED STATES
No:

ALGERE JONES, AKA BUSH,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Pursuant to Rule 39 of the Rules of this Court and 18 U.S.C. ยง 3006A(d)(6),
petitioner ALGERE JONES requests leave to file the accompanying petition for a
writ of certiorari without prepayment of costs and to proceed in forma pau,peris.
Petitioner was represented by Criminal Justice Act counsel in connection
with his hearing before the United States District Court for the Southern District
of New York and his appeal before the United States Court of Appeals for the
Second Circuit, pursuant to 18 U.S.C. ยง 3006A(b) and (c).

Dated: July 14, 2020
Hempstead, New York

Respectfully submitted,

Marlon G. Kirton
KIRTON LAW FIRM
175 Fulton Avenue
Suite 305
Hempstead, New York 11550
kirtonlawfirm@gmail.com

